Audit of Last Quarter Grant Expenditures at Tufts University A-01-98-04004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Last Quarter Grant Expenditures at Tufts University" (A-01-98-04004)
September 24, 1998
Complete
Text of Report is available in PDF format (58 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1142.
EXECUTIVE SUMMARY:
This report presents the results of our audit of last quarter grant expenditures at Tufts University for the period July
1, 1996 through June 30, 1997. The objective of this audit was to determine whether the last quarter grant expenditures
were reasonable and allowable in accordance with the Office of Management and Budget Circular A-21, Cost Principles
for Educational Institutions, and other applicable regulations governing the grants.
We reviewed 65 transactions charged, during the last quarter of the grants. to ten judgementally selected grants. The
transactions represented expenditures which were classified as equipment, supplies, travel, or other direct non-labor costs.
We found that the selected transactions represented expenditures which were necessary for the performance of the grant
and therefore were reasonable and allowable. Based on these results, we concluded our audit as no deficiencies were identified
regarding the selected transactions.